No. 19-392
INTHE

~upreme <!Court of tbe 'mniteb ~tates
MARTIN A. ARMSTRONG,

Petitioner,

v.
SECURITIES AND EXCHANGE COMMISSION, UNITED STATES COMMODITY FUTURES
TRADING COMMISSION, TANCRED SCHIAVONI, IN HIS CAPACITY AS TEMPORARY
RECEIVER, AND THE UNITED STATES OF AMERICA,

Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
CERTIFICATE OF SERVICE
I, Jonathan D. Hacker, a member of the bar of this Court, hereby certify that, on this
3rd day of February, 2020, all parties required by the Rules of this Court to be served have
been served.

Three copies of the Brief in Opposition of Temporary Receiver Tancred

Schiavoni in the above-captioned case were sent via FedEx to counsel of record listed below:
George William Hicks, Jr.
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 879-5000
george.hicks@kirkland.com

Counsel of Record for Petitioner

Noel J. Francisco
Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel of Record for Respondents SEC, et al.

I also certify that an electronic version of the aforementioned document was
transmitted by e-mail to all counsel of record.
than D. Hacker

